HHS/OIG-Audit--"Review of Incorrect Medicare Payments Made to Uniformed Services Treatment Facilities, (A-14-93-00377)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Incorrect Medicare Payments Made to Uniformed Services Treatment
Facilities," (A-14-93-00377)
August 30, 1993
Complete Text of Report is available in PDF format
(2.53 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report represents the results of a joint review by the Offices of
Inspectors General of the Department of Health and Human Services and the Department
of Defense (DOD) required by the Defense Authorization Act (DAA) of 1993 to
review and determine the amount of incorrect Medicare payments made to the Uniformed
Services Treatment Facilities (USTF) during the period October 1, 1986 through
December 31, 1989. The DAA also required that, as part of this joint review,
we address possible procedures to avoid future billing inaccuracies. The DOD
estimated that only $7.1 million in Medicare Part A benefit payments was for
covered USTF services. We jointly determined, however, that DOD owes the Health
Care Financing Administration about $7.8 million and have recommended a financial
adjustment based on this amount. We also recommended procedural improvements
to preclude billing inaccuracies and problems in the future.